Executive Report


Return to the USDOJ/OIG Home Page


Office of Community Oriented Policing Services
Grants to the Iowa State Patrol
GR-50-00-006
November 30, 1999
Office of the Inspector General

EXECUTIVE SUMMARY
The Office of the Inspector General, Audit Division, has completed an audit of grants awarded by the Office of Community Oriented Policing Services to the Iowa State Patrol. The purpose of the grants is to enhance community policing.  The Iowa State Patrol was awarded a total of $1,083,845 to hire 12 new officers and redeploy the equivalent of 13.5 existing full-time officers to community policing.

We reviewed the Iowa State Patrol's compliance with eight essential grant conditions and found it to be in compliance with six of the grant conditions.  However, Iowa State Patrol's reimbursement requests contained unallowable costs for officer salaries and fringe benefits that resulted in questioned costs totaling $52,221.  In addition, several financial status reports were either not accurate, not timely, or not filed.

These items are discussed in detail in the Findings and Recommendations section of the report.  Our audit objectives, scope, and methodology appear in Appendix I.